IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1318
Vincent W. Shack,
Petitioner,
v.
NBC UNIVERSAL MEDIA, LLC et al,
IMG WORLDWIDE, INC,
LADIES PROFESSIONAL GOLF ASSOCIATION,
SAMSUNG ELECTRONICS AMERICA INC.,
Respondents.
CERTIFICATE OF SERVICE

I, Vincent W. Shack, pro se, hereby certify that on this 23rd day of June, 2021,1
caused four copies of the Notice of Docket Entry in Support of Petitioner to be
served by regular US postal mail delivery on the following counsel: Attorney for
Respondents.
Paul K. Schrieffer
100 North Barranca Street, Suite 1100
West Covina, CA 91791
NBC Universal Media, LLC
dm@pksllp.com

Robert Salley
Tharpe & Howell
15250 Ventura Blvd. Ninth Floor
Sherman Oaks, CA 91403
IMG Worldwide, INC.
rsalley @tharpe-ho wel 1. com

Lawrence Robert Ramsey
Robert Salley
Bowman and Brooke, LLP
Tharpe & Howell
970 West 190th Street, Suite 700
15250 Ventura Blvd. Ninth Floor
Torrance, CA 90502
Sherman Oaks, CA 91403
Samsung
Ladies Professional Golf Association
Larrv. ranisey@bowmanandbrooke.com
rsalley@tharpe-howell.com
I further certify that all parties required to be served/have been serve*!.
i

Vincent W. Shack
64337 Doral Drive
Desert Hot Springs CA 92240
(760)218-9777
RECEIVED
vgreengolf@aol.com

JUN 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

